VISA PLATINUM
F1
APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

3.90%
F2

APR for Balance Transfers

After that your APR will be
your creditworthiness.
3.90%
F6
Introductory APR for a period of six
F7 billing cycles

Introductory APR for a period of F3
six billing cycles

8.90%
F4

APR for Cash Advances
How to Avoid Paying Interest on Purchases
For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
- Transaction Fee for Purchases
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

to 17.50%
F5

.

, based on
.

8.90% to 17.50%
After that your APR will be F8
F9
, based on your
creditworthiness.
8.90%
F10
to 17.50%
F11
when you open your account, based on your
creditworthiness.
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

None
F12
None
F13
None
F14
1.00%
F15
1.00%
F16
None
F17

of each multiple currency transaction in U.S. dollars
of each single currency transaction in U.S. dollars

Up to $25.00
F18
None
F19
Up to $25.00
F20

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
Promotional Period for Introductory APR: The Introductory APR for purchases and balance transfers will apply to
transactions posted to your account during the first 60
F21days
following issuance of your card. Any existing balances
on current Launch Federal Credit Union loan and/or credit card programs are not eligible for the introductory APR.
Effective Date:
The information about the costs of the card described in this application is accurate as of January
F22
.
1, 2017
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee
Statement Copy Fee
Rush Fee
Card Replacement Fee

©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

F23
or the amount of the required minimum payment, whichever is
$25.00
less, if you are five or more days late in making a payment.
F24
or the amount of the required minimum payment, whichever is
$25.00
less.
F25
$5.00
Up to F26
$65.00
F27
$5.00

00907475-MXC40-P-1-121416 (MXC403 CCM003)-e

